OIG Investigative Reports, Pittsburgh, PA., November 30, 2011 - Butler County Woman Fraudulently Obtained School Loans
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
Western District of Pennslyvania
NEWS
Butler County Woman Fraudulently Obtained School Loans
FOR IMMEDIATE RELEASE
Novemver 30, 2011
PITTSBURGH, Pa. - A resident of Harrisville, Pennsylvania, pleaded guilty in federal court to a charge of mail fraud, United States Attorney David J. Hickton announced today.
Kelly Ann Burdette, a/k/a Kelly Montifiori, a/k/a Kelly Sturgis, 44, pleaded guilty to one count before United States District Judge Arthur J. Schwab.
In connection with the guilty plea, the court was advised that Burdette fraudulently obtained student loans from private lenders in the name of a relative. Burdette forged her relative's name on the loan applications and proceeds checks.
Judge Schwab scheduled sentencing for March 30, 2012, at 9:30 a.m. The law provides for a total sentence of 30 years in prison, a fine of $1,000,000, or both.  Under the Federal Sentencing Guidelines, the actual sentence imposed would be based upon the seriousness of the offense and the prior criminal history, if any, of the defendant.
Pending sentencing, the court continued the defendant on bond.
Assistant United States Attorney Leo M. Dillon is prosecuting this case on behalf of the government.
The United States Department of Education, Office of Inspector General, the United States Postal Inspection Service, the Pennsylvania State Police, and the Pennsylvania Higher Education  Assistance Agency (PHEAA) conducted the investigation leading to the indictment in this case.
Top
Printable view
Last Modified: 12/02/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov